ACCOUNT OPENING DISCLOSURES
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

25.90%
This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

25.90%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your Payment Due Date is at least 25 days after the close of each
Billing Cycle. We will not charge you any interest on purchases if you
pay your entire Account balance by the Payment Due Date each
month. We will begin charging interest on cash advances on the
transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Set up and Maintenance Fees

NOTICE: Some of these set-up and maintenance fees will be assessed
before you begin using your Card and will reduce the amount of credit
you initially have available. Based on your Credit Limit of $750, your
initial available credit will be $651 (or $621 if you choose to have an
additional Card).
You may still reject this plan, provided that you have not yet used the
Card or paid a fee after receiving a Monthly Billing Statement. If you do
reject the plan, you are not responsible for any Fees or Other Charges.

●

Annual Fee

$99.00

●

Additional Card Fee

$30.00 (one time, if applicable)

Transaction Fees
●

Cash Advance

Either $5.00 or 5% of the amount of each cash advance, whichever is
greater.

●

Foreign Transaction

3% of each transaction in U.S. dollars.

Penalty Fees
●

Late Payment

Up to $40.00

●

Returned Payment

Up to $40.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See
INTEREST CHARGES below for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Cardholder Agreement.

CHARGES AND FEES
INTEREST CHARGES:
Periodic Rates.
INTEREST CHARGES for purchases and cash advances are calculated at a monthly periodic rate of 2.1583%, which is
equivalent to an ANNUAL PERCENTAGE RATE ("APR") of 25.90%.
Variable Rate.
The APR may increase or decrease on the first day of the subsequent monthly Billing Cycle based on changes in the
prime rate ("Index"). The APR is calculated by adding the amount of margin stated below to the Index. The Index is the
prime rate published in the Money Rates section of The Wall Street Journal on the 25th day of each month. If the Index is
not published on that day, the Index on the next business day will be used. Any increase in the APR may increase the
amount of interest charged to your Account and the total amount you must pay, and may take the form of an increase in
the monthly Minimum Payment. If the Index is no longer available, we will choose a new index that is based upon
comparable information. The APR for purchases and cash advances will be determined by adding a margin of 22.65% to
the Index.
INTEREST CHARGES are imposed on purchases beginning on the date a purchase is posted to your Account.
However, INTEREST CHARGES will not be imposed on purchases made in any Billing Cycle in which the previous
balance shown on your Monthly Billing Statement is zero and you pay your new balance in full by the Payment Due Date
shown on your Monthly Billing Statement. INTEREST CHARGES are imposed on cash advances beginning on the date
a cash advance is obtained and continuing until the balance of your Account is paid in full. There is no time in which you
can pay the balance of cash advances in order to completely avoid INTEREST CHARGES.
INTEREST CHARGES for a Billing Cycle are calculated separately for purchases and cash advances. There is no
minimum INTEREST CHARGE. The INTEREST CHARGE calculation begins on the date the transaction is posted to
your Account.
For purchases, the INTEREST CHARGE is computed by multiplying the monthly periodic rate by the average daily
balance of purchases. To determine the average daily balance of purchases, we take the beginning outstanding balance
of purchases each day, add any new purchases, and subtract any payments and/or credits. This gives us the daily
balance of purchases. (Any daily balance that is a credit balance is treated as zero ($0.00) balance.) Then, we add all the
daily balances of purchases for the Billing Cycle together and divide the total by the number of days in the Billing Cycle.
This gives us the average daily balance of purchases.
For cash advances, the INTEREST CHARGE is computed by multiplying the monthly periodic rate by the average daily
balance of cash advances. To get the average daily balance of cash advances, we take the beginning outstanding
balance of cash advances each day, add in any new cash advances, and subtract any payments and/or credits that we
apply to the cash advance balance. This gives us the daily balance of cash advances. (Any daily balance that is a credit
balance is treated as zero ($0.00) balance.) Then, we add all the daily balances of cash advances for the Billing Cycle
together and divide the total by the number of days in the Billing Cycle. This gives us the average daily balance of cash
advances.
FEES AND OTHER CHARGES:
Your Account is subject to the following Fees and Other Charges, each of which may be charged to your Account:
Cash Advance Fee. In addition to the INTEREST CHARGE on cash advances, there is a fee of 5% or $5.00, whichever
is greater, for each cash advance posted to your Account that month ("Cash Advance Fee"). NO CASH ADVANCES
ARE PERMITTED DURING THE FIRST 95 DAYS AN ACCOUNT IS OPEN.
Additional Card Fee. Your Account will be assessed a one-time additional card fee of $30.00 for each authorized user
you add to your Account.
Foreign Currency Transaction Fee. Your Account will be assessed a foreign currency transaction fee equal to 3% of
any transaction made in a foreign currency that is converted to U.S. Dollars.
Annual Fee. Your Account will be assessed an Annual Fee of $99.00 (“Annual Fee”). The Annual Fee will be billed to
your Account once the account is opened, and on or about your anniversary date each year. Your payment of the Annual
Fee does not affect our right to close your Account or our ability to limit transactions on your Account.

Annual Fee Renewal Refund Disclosure. We will refund the Annual Fee charged to your Account if you notify us, within
30 days from the date of the Monthly Billing Statement on which it appears, that you wish to close your Account.
Late Payment Fee. If we do not receive a payment from you in at least the amount of the minimum payment due
("Minimum Payment") by the Payment Due Date shown on your Monthly Billing Statement, you will be charged a Late
Payment Fee equal to the lesser of $29.00 or your Minimum Payment ("Late Payment Fee") in accordance with law. If
you fail to make a timely payment in any of the six (6) Billing Cycles after the initial late payment, you will be charged
$40.00 or the amount of the required Minimum Payment, whichever is less. We may refer to this fee as the "Late Fee" or
"Late Charge".
Returned Payment Fee. If you make a payment on your Account and your check or other payment instrument (including
an electronic funds transfer or a telephone authorized draft) is not honored for any reason or cannot be processed, we
will charge a Returned Payment Fee equal to the lesser of $29.00 or your Minimum Payment ("Returned Payment Fee").
In the event a payment is returned in any of the six (6) Billing Cycles after the initial returned payment, you will be
charged $40.00 or the amount of the required Minimum Payment, whichever is less. The charge may be imposed even if
we elect to re-present the item and it is paid upon our re- presentment. We will not charge both a Late Payment Fee and
a Returned Payment Fee based upon a single payment.
OTHER IMPORTANT DISCLOSURES:
Authorization. You certify that all the information given in your application is true and correct and you are giving this
information in order to obtain credit and authorize us to obtain information concerning any statements herein. You agree to
furnish us with all requested information. You authorize us to charge the Annual Fee and Additional Card Fee (if
applicable) to your Account.

THE BANK OF MISSOURI CARDHOLDER AGREEMENT
YOUR AGREEMENT WITH US
General Terms. This Agreement covers the terms and conditions of the Card Account ("Account"). The Bank Of Missouri
is the Card issuer and assigns its rights for servicing and other rights to Continental Finance Company ("Continental
Finance") after Card issuance.
You agree to be bound by the following terms and conditions, which shall constitute an agreement between you and us.
Furthermore, by accepting and using the Card, or paying any INTEREST CHARGES, Fees, or Other Charges, whichever
comes first, you expressly agree to be bound by the provisions of this Agreement and the rates and charges for use of
the Card, including as set forth under the "Charges and Fees" provisions, which are hereby expressly incorporated by
reference into this Agreement. In this Agreement, "we", "us", and "our" refer to The Bank Of Missouri as the issuer of the
Card and Continental Finance as servicer, and each of their respective agents, authorized representatives, successors
and assignees "Agreement" means this Cardholder Agreement. The words "you" and "your" mean the person who
applied for the Account and each person to whom we issue a Card at the applicant's request or who uses a Card with the
applicant's consent ("Additional Card or Authorized User"). The word "Card" means your credit card.
Please read this Agreement carefully and save it for future reference. It contains important state and federal disclosures,
including Regulation Z disclosures and disclosures regarding your rights in case of errors or inquiries about your bill and
important provisions relating to arbitration and litigation.
Applicable Law.
This Agreement and your Account, and any claim, dispute or controversy (whether in contract, tort, or otherwise) at any
time arising from or related to your Account, this Agreement or any transferred balances, are governed by and construed
in accordance with applicable federal law and, to the extent not preempted by federal law, by the laws of Missouri
(without applying its choice-of-law rules), including Mo. Rev. Stat. § 408.145 (“Applicable Law”). For Maryland
cardholders, in the event Missouri law does not apply, we elect Sections 12-103(a)(1) and 12-501 et seq. of the
Commercial Law. The formation, legality, enforceability, and interpretation of this Agreement, and any amounts
contracted for, charged and received under this Agreement, will be governed by such laws. This Agreement is entered
into between you and us in Missouri, regardless of the state of your residence or whether or not your Account or Card is
used in Missouri. Our decisions regarding the extension of credit to you are made in the State of Missouri. Federal and
Missouri law will also apply to any controversy, claim, or dispute arising from or relating in any way to the subject matter
of this Agreement and your Account, including, without limitation, statutory, equitable, and tort claims.
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction
or account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or
accounts); and any participation fee charged (other than certain participation fees for a credit card account). To be

provided with an oral disclosure of this information, please call toll-free 1-800-935-3808.
Effective Date: This Agreement is effective upon the earlier of your acceptance and use of the Card to make a purchase
or to receive a cash advance, or your payment of INTEREST CHARGES, Fees or Other Charges. You may reject this
Card, provided that you have not yet used the Card or paid INTEREST CHARGES, Fees, or Other Charges after
receiving a Monthly Billing Statement. If you reject the Card, you are not responsible for any INTEREST CHARGES,
Fees or Other Charges. Notwithstanding anything to the contrary in this Agreement, if you are a resident of the State of
New York, this Agreement is effective upon your acceptance and use of the Card.
Changes in Agreement Terms. We can change any term of this Agreement, including the rate at which or manner in
which INTEREST CHARGES, Fees, and Other Charges are calculated, in our sole discretion, upon such notice to you as
is required by law. At our option, any change will apply both to your new activity and to your outstanding balance when
the change is effective as permitted by law.
Binding Effect. This Agreement is binding upon and enforceable against your heirs, legal representatives, and
successors.
Severability. If any provision of this Agreement, including any portion of the Arbitration Provisions set forth below, is
determined to be invalid or unenforceable under any rule, law, or regulation, the validity or enforceability of any other
provision of this Agreement shall not be affected, and in lieu of such invalid or unenforceable provision there shall be
added automatically, as part of this Agreement, a provision as similar in terms as may be valid and enforceable, if
possible. Notwithstanding the foregoing, if a class action litigation or a class-wide arbitration is permitted for any reason,
either party may require that the entire Dispute, as defined in the Arbitration Provision below, be heard by a judge, sitting
without a jury, under applicable court rules and procedures.
Entire Agreement. This Agreement, together with your Application, constitutes the final and complete credit agreement
between you and us relating to your Account and supersedes and may not be contradicted by evidence of any prior,
contemporaneous, or subsequent oral credit agreement between you and us relating to your Account.
USING YOUR CARD
Sign Your Card. To avoid unauthorized use of your Card, please sign the back of your Card immediately.
General Use. You may use your Card and your Account to make purchases if your Account is in good standing and you
have available credit. Your Card and Account may be used only for valid and lawful purposes. If you or an Authorized
User uses your Card and Account for any other purpose, you will be responsible for the use and may be required to
reimburse us for all amounts or expenses we pay as a result of the use. No cash advances are permitted within the first
ninety five (95) days after an Account is open. After ninety five (95) days have elapsed from Account opening, you may
obtain cash advances (See Cash Advance Fee section). You may not use the Card or your Account for any illegal
transaction or any gambling transaction. We will decline identifiable gambling transactions. We may impose restrictions
on your Account at any time as determined to be necessary by us in connection with our efforts to detect fraud or
unauthorized use, including restrictions on (a) the number of transactions allowed per day; (b) the dollar amount of
transactions approved; (c) your ability to obtain cash advances; and (d) your ability to use your Card at an automated
teller machine ("ATM").
If you give your Account number to make a purchase or obtain a cash advance without presenting your Card (such as for
a mail order, telephone, or Internet purchase), the legal effect will be the same as if the Card was present.
You may also use your Card and a personal identification number ("PIN") to obtain cash advances at an ATM, if we, at
our option, issue you a PIN. ATM transactions are treated the same as cash advances. We may restrict your access to
any ATM at any time. You should not keep your PIN with your Card. If you believe that anyone has gained unauthorized
access to your PIN, you should advise us immediately by following the procedures under the heading "Lost or Stolen
Card."
Your Responsibility for Authorized Users. If another person is given access to your Account and/or Card with your
express or implied permission, notwithstanding the provision above, that person is an Authorized User, even if we did not
issue an additional Card in the Authorized User's name. At your request, and if we agree, we may issue an additional
Card in the name of an Authorized User with your Account number. You will be responsible for all charges, cash
advances, INTEREST CHARGES, purchases and Fees incurred by any Authorized User. We are not required to try to
obtain payment from any Authorized User before requiring payment from you.
If you wish to remove an Authorized User from your Account you must contact us either by telephone or in writing. You
will still be responsible for payment of all purchases, cash advances, INTEREST CHARGES and Fees incurred or
obtained by the Authorized User. We may close your existing Account and issue you a new Card and Account number.
Lost or Stolen Card. If you notice the loss or theft of your Card or a possible unauthorized use of your Card, you should
write to us immediately at: Continental Finance, P.O. Box 3220, Buffalo, NY 14240-3220, or call us at 1-800-556-5678
. You will not be liable for any unauthorized use.

Refusals to Honor Card/Rejection of Transactions. We are not responsible if any financial institution, merchant, or
other person refuses to honor your Card. Except as otherwise required by law or regulations, we will not be responsible
for merchandise or services purchased through your Card. Also, we may reject any transaction for any reason.
USING YOUR ACCOUNT
Accessing Your Credit Line. You can use the Card and your Account to make purchases and obtain cash advances.
Upon your request, you may be assigned a PIN. If a PIN is assigned to you, you may obtain a cash advance, any time
after ninety five (95) days after Account opening, at any authorized ATM that bears the Mastercard® acceptance mark by
using the Card and PIN. You should keep your PIN secure and not write it down, give it to anyone or keep it with your
Card. Contact us immediately if someone has gained unauthorized access to your Card(s).
Understanding Your Credit Limit. Your "Credit Limit" is the maximum amount of credit we have approved for your
Account. The amount of your Credit Limit is disclosed in the "Account Opening Disclosures" section of this Agreement
and on your Monthly Billing Statements. You are responsible for keeping track of your Account balance and your Credit
Limit. Your Account balance may not exceed your Credit Limit at any time. Decisions on Credit Limit Increases will be in
accordance with federal law. We reserve the right to approve or deny authorizations or transactions from any merchant at
our sole discretion.
Network Outages. From time to time, due to circumstances beyond our control (such as fires, floods, earthquakes and
other natural disasters and unpredictable events), our services may be unavailable. We will not be responsible or liable if
this happens.
UNDERSTANDING YOUR PAYMENTS
Your Promise to Pay, Cut-Off Time, Form of Payments. You promise to pay to us all amounts advanced to you as a
purchase or a cash advance (including amounts advanced for Authorized Users) under this Agreement, plus all
INTEREST CHARGES and Fees assessed on those amounts and all other charges, costs, and Fees which are applied
to your Account. All payments must be made in U.S. dollars, and all checks or other items tendered in payment must be
drawn on United States financial institutions. Payments must be made to Continental Finance at the address shown on
the Monthly Billing Statement ("Mail Payments To" address") and must be received by Continental Finance no later than
5:00 p.m., prevailing Eastern Time on the date on which they are due. Payments made at a branch or office of The Bank
Of Missouri or Continental Finance prior to the close of business at the branch or office shall be considered received on
the day the payment is made at such location.
Payment Due Date. The Payment Due Date will be at least twenty-five (25) days after the Billing Cycle closing date
("Payment Due Date"). Payments will be credited to your Account as of the day of receipt if they are made in accordance
with our instructions. Your Payment Due Date will be the same day each month. If the Payment Due Date falls on a
weekend, holiday or other day on which we do not receive payments, the Minimum Payment Due plus any other payment
must be received no later than 5:00 p.m. prevailing Eastern Time on the next business day we receive payments.
Amount of Payment. You may pay any or all of the amounts you owe at any time without penalty, but you must pay at
least the Minimum Payment Due each month on or before the Payment Due Date.
Minimum Payment Due:
●

If the New Balance shown on your Monthly Billing Statement is less than or equal to $35.00, the Minimum Payment
Due equals the New Balance.

●

If your New Balance exceeds $35.00, the Minimum Payment Due equals the greater of 4.00% of the New Balance
or $35.00, plus any Late Payment Fee assessed in the current Billing Cycle plus any past due amounts, not to
exceed your Account balance.

Applying of Payments. Payments in excess of the Minimum Payment Due are applied in accordance with law.
Availability of Credit and Payment Holds. Generally, payments are credited to your Account on the day they are
received. Available credit created as a result of payments posted to your Account may not be available for up to seven
(7) days, or longer if circumstances warrant an additional hold, or if we deem ourselves at risk for any reason. If you use
a payment service provided by a third party to deliver your payment to us, that third party may charge you a fee for such
service; such third party fees will not be billed to your Account. Credit to your Account may be delayed up to five (5) days
if payment is (a) not received at the Payment Address or (b) not accompanied by the payment coupon portion of your
Monthly Billing Statement. Delayed crediting may result in Late Fee and additional INTEREST CHARGES and Fees
being applied to your Card.
Direct Debit. You may choose, subject to our approval, to make a payment by means of a direct debit or charge to any
deposit, savings, or credit account of yours ("Payment Account"). By requesting that we process a payment by direct
debit or charge to your Payment Account, you hereby authorize us, at our option, to debit your Payment Account by

means of an electronic transaction or to submit a paper check or draft to your financial institution, consistent
with your instructions.
Electronic Check Presentment. If you pay by check, you are authorizing us to use information on your
check to make a one-time electronic debit from your account at the financial institution indicated on your
check. This electronic debit will be for the amount of your check; no additional amount will be added to the
electronic debit. We will process your payment using the Automated Clearing House ("ACH") system.
Electronically processed and/or presented checks (and checks presented electronically) are not returned to
you by your financial institution, bank or credit union. We will retain an image of your electronically processed
check as required by law. A copy of the check can also be retrieved by contacting your financial institution.
Please contact the Customer Service Department at the telephone number on your Monthly Billing Statement
to learn about other payment options.
Irregular Payments and Delay in Enforcement, Waivers and Releases. We may accept late payments,
partial payments, checks, and money orders marked "paid in full" or language having the same effect, without
losing any of our rights or legal defenses. All written communications concerning disputed amounts, including
a check or other payment instrument that (a) indicates that the payment constitutes "payment in full" or is
otherwise tendered as full satisfaction of a disputed amount, or (b) is tendered with other conditions or
limitations, must be marked or delivered to us at the address for “Send Correspondence To” shown on your
Monthly Billing Statement, not the payment address. You waive presentment for payment, notice of nonpayment, and you agree to any extensions of time of payment and partial payment before, at, or after
maturity.
MONTHLY BILLING STATEMENTS, OTHER INFORMATION AND COMMUNICATION FROM US
When We Send Monthly Billing Statements. We will promptly send a Monthly Billing Statement at the end
of each monthly Billing Cycle if your Account has a debit or credit balance greater than $1.00 or if an
INTEREST CHARGE or Fee has been imposed.
Where We Send Your Monthly Billing Statement. We will send Monthly Billing Statements and any other
notices to you at the address shown in our files. You agree to notify us promptly of any change in your
address. We may accept address changes or corrections from the United States Postal Service. We may
also mail Monthly Billing Statements and other communications to you at any address we determine to be an
address at which you can receive mail. If you elect to receive Monthly Billing Statements and other
communications electronically, we may send those Monthly Billing Statements and communications as
directed by you.
Understanding Your Monthly Billing Statement. The Monthly Billing Statement will show the Previous
Balance, purchases and cash advances posted during the Billing Cycle, any INTEREST CHARGES, Fees
and Other Charges, and all payments, debits, and credits to your Account through the Billing Cycle Closing
Date. It will also show, among other things, your New Balance, the Minimum Payment Due, and the
Payment Due Date (which will be at least twenty- five (25) days after the Billing Cycle Closing Date and
will be the same day every month).
You agree to review your Monthly Billing Statement promptly and to report any erroneous entries on such
Monthly Billing Statement. You are obligated to report erroneous entries within 60 days after we mail or
otherwise make the Monthly Billing Statement available to you. If you do not report the erroneous entries
within the timeframe, the entries on your Monthly Billing Statement and the corresponding Account balance
will be presumed to be correct. This means we will have no liability to you for transactions appearing on your
Monthly Billing Statement. If you dispute a transaction made by you or someone else on your Account and we
later credit your Account for all or part of the disputed amount, you will give us all of your rights against that
other person. You also agree to give us any merchandise associated with the disputed transaction and to
help us in our efforts to seek reimbursement (including, but not limited to, providing documents).
Your Consent to Automated-Dialer and Pre-recorded Calls and Text Messages. By providing us with a
telephone number(s), at any time, you consent and authorize us to contact you regarding your Account at
such number(s) using any lawful means of communication, including, but not limited to calls placed to your
cell, mobile or other phone using an automated dialing service, pre- recorded messages or text messages.
Standard text messaging and/or calling charges imposed by your provider may apply. You do have the
option to opt out of receiving communications at that number any time thereafter by contacting us at [the
customer service telephone number provided on your statement], or sending written notice to us to the
following address: [The Bank of Missouri, c/o Continental Finance Company, P.O. Box 3220, Buffalo, NY
14240-3220]. You must retain proof of delivery. If you send communications to any other address, we
may not process your request.
E-mail. By providing us with your e-mail address, you agree to receive correspondence electronically
from us and our affiliates and service providers. We may communicate with you by e-mail for any lawful
or business purpose.

Call Monitoring. We may monitor and record any calls between you and us.
Notices. We may send any notices to the address you gave us, or, if you have agreed, by email to the address
you gave us. If you have multiple addresses, we will send notices to only one such address. We consider a
notice sent as soon as we mail it. We consider an electronic notice sent as soon as we email it, unless we
receive notification that the email was undeliverable.

DEFAULT PROVISIONS
Events of Default. You will be in default of this Agreement if any of the following occur on this or any other
Account you have with us:

●

You do not pay at least the Minimum Payment Due on your Account on or before the Payment Due Date.

●

You die or become legally incompetent.

●

A bankruptcy or other insolvency proceeding is filed by or against you.

●

You exceed or attempt to exceed your Credit Limit.

●

You provide us with or have provided us with false or misleading information or signatures at any time.

●

You fail to comply with this Agreement.

●

You fail to make any payment or perform any promise in any agreement or obligation you have with us.

●

Any judgment, lien, attachment or execution is issued against you or your property.

●

You request an excessive number of replacement Cards.

●

We reasonably believe you will not pay amounts owed to us for any reason.

●

You permanently reside outside of the United States.

If You Are In Default: Upon your default of this Agreement, we have all remedies provided by law
including, without limitation, and without prior notice or demand (except as required by Applicable Law),
the right to:
●

Deny use of your Account.

●

Close or refuse to renew your Account.

●

Demand the return of your Card(s).

●

Declare your entire Account balance immediately due and payable.

●

Increase your Minimum Payment.

●

Initiate collection activity.

●

Not replace your Card(s).

●

Reduce your Credit Limit.

●

Pursue any action against you permitted by law.

Collection Costs. To the extent permitted by law, you must pay all court and collection costs, including
reasonable attorneys' fees that we incur as a result of your default. A contingency or hourly arrangement
established by us with an attorney or collection agency to collect an Account in default is presumed prima
facie reasonable.
CLOSING YOUR ACCOUNT
We May Close or Suspend Your Account. We may terminate your privileges under this Agreement or
cancel or limit your privileges to make purchases or obtain cash advances at any time, with or without
cause, subject to applicable notice requirements.
You May Close Your Account. You may terminate your Account at any time by notifying us by telephone
or in writing. Whether your Account was terminated by us or by you, you promise that any amounts that you
owe us at the time of
termination, plus any new purchases or cash advances, as well as any INTEREST CHARGES, Fees and
Other Charges
that will continue to be imposed at the rates specified in this Agreement, will be repaid according to this
Agreement. You agree that you will not try to make any purchases or obtain cash advances after you have

been notified that your privileges to use your Account have been canceled. You may terminate this Account
at any time. In order to terminate your Account, you must either call us or give us written notice of your intent
to terminate your Account at the address for “Send Correspondence To” shown on your Monthly Billing
Statement, and pay your outstanding Account balance in full. Your notice of termination will become effective
as soon as we can reasonably act on it. If you request that we terminate your Account, but do not pay your
outstanding Account balance in full, your credit privileges will be terminated.
Account Non-Use, Inactivity and/or Closure. In connection with the initial opening of your Account (but not
in connection with renewing the Account or replacing Cards that have been used for transactions to the
Account), if you have not made a payment, and either: (1) you do not activate your Card, or (2) you activate
your Card but do not use your Account for a purchase or cash advance, we may unilaterally close your
Account and terminate your right to use the Card or obtain credit, subject to any limitations under Applicable
Law. If we close the Account in accordance with this paragraph, all Fees posted to your Account will be
reversed.
Initial Fees Refund Disclosure. You may still reject this plan, provided that you have not yet used the
Account or paid INTEREST CHARGES, Fees or Other Charges after receiving a Monthly Billing Statement. If
you do reject the plan, you are not responsible for any INTEREST CHARGES, Fees or Other Charges.
OTHER TERMS AND CONDITIONS
Binding Effect Upon Death or Incompetency. If we pay a merchant or financial institution for a purchase or
post a cash advance to your Account before we receive actual written notice of your death or incompetence,
or if we pay a merchant or financial institution for a purchase made by you or post a cash advance taken by
you prior to your death or incompetence, that transaction will be a valid and binding Account obligation upon
you, your estate and your personal representatives.
Our Liability To You. Neither The Bank Of Missouri nor Continental Finance will have any liability to you
other than as provided in the Agreement and these terms and conditions. Unless imposed by law, neither The
Bank Of Missouri nor Continental Finance will be liable for any indirect, punitive, incidental, special or
consequential loss or damages with respect to this Agreement.
Notices. We will send Monthly Billing Statements and any other notices to you at the address shown in our
files. If you choose to receive Monthly Billing Statements electronically, we will send them and any other
notices to you at the email address shown in our files. You promise to inform us promptly in writing of any
change in your address or email address. Any written notice from you to us must be sent to us at Continental
Finance, P.O. Box 3220, Buffalo, NY 14240-3220 or to such other address as we may give you, and shall be
effective when received by us at such address. In determining your last known address, we can accept
address corrections received from the U.S. Postal Service.
Credit Limit Increases. Your Account will be reviewed for a Credit Limit Increase in accordance with
applicable law after your Account has been open for at least 6 months. In order to receive a Credit Limit
Increase, you must qualify for and elect to receive such increase. Each Credit Limit Increase may vary in size
but will be subject to a maximum Credit Limit of $3,000.00. Each Credit Limit Increase will appear on your
Account no later than one (1) month after you have qualified for such increase. We may change the criteria
applied to determine your eligibility for a Credit Limit Increase at any time in our sole discretion in accordance
with Applicable Law. In addition, we may elect, in our sole discretion, to modify or discontinue the practice of
granting Credit Limit Increases.
Foreign Currency Conversion Rate. If you effect a transaction at a merchant that settles in a currency other
than U.S. dollars, the transaction amount will be converted into U.S. dollars at a government-mandated
exchange rate, or a wholesale exchange rate. The government-mandated exchange rate or wholesale
exchange rate is the rate selected for the applicable currency on the day the transaction is processed, which
may differ from that applicable to the date the transaction occurred or when it is posted to your Account.
Call Monitoring/Recording. You authorize us and any third party servicing your Account to listen to and
record telephone calls with you to evaluate the quality of service or for any other lawful purpose, if permitted
under Applicable Law.
Sale/Assignment/Transfer. We may sell, assign, or transfer all or any portion of your Account or any
Account balances due under your Account without prior notice to you. You may not sell, assign, or transfer
your Card or your Account or any of your obligations under this Agreement.
Use of Information about You and Your Account. Because you applied for a Card, we are entitled under
Applicable Law, including the Fair Credit Reporting Act, to obtain information about you from a credit
reporting agency. We may also verify your credit references and other information that you provide to us. We
may obtain updated or additional information about you, including consumer reports, from time to time for
any legitimate purpose including, but not limited to, the extension of credit to you or the review or collection

of your Account. We will report late payments, missed payments, or other defaults on your Account to credit
bureaus.
You understand to prevent the funding of terrorism and money laundering, the United States Government
requires financial institutions obtain, verify and retain certain cardholder information, such as your name,
address, date of birth and other identifying information including your driver's license or other governmentissued ID, to allow us to confirm your identity. We will retain this information. With respect to information
about you and your Account that is covered by our privacy policy, we will use such information in accordance
with the terms of the Privacy Policy.
How to Contact Us. For general inquiries and correspondence we can be reached in writing at:
Continental Finance, P.O. Box 3220, Buffalo, NY 14240-3220. Or, you can call our Customer Service
Department at 1-866-449-4514. Automated Account information is available 24 hours a day, 7 days a week
with representatives available Monday — Friday between the hours of 7:00 a.m. to 10:00 p.m. and Saturday
between the hours of 9:00 a.m. to 4:00 p.m., Eastern Time. Payments should be mailed to the address listed
on your Monthly Billing Statement.

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Monthly Billing Statement.
If you think there is an error on your Monthly Billing Statement,
write to us at: Continental Finance
P.O. Box 3220
Buffalo, NY 14240-3220
In your letter, give us the following information:
●

Account information: Your name and Account number.

●

Dollar amount: The dollar amount of the suspected error.

●

Description of problem: If you think there is an error on your Monthly Billing Statement, describe what
you believe is wrong and why you believe it is a mistake.
You must contact us:

●

Within 60 days after the error appeared on your Monthly Billing Statement.

●

At least 3 business days before an automated payment is scheduled, if you want to stop payment on
the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do we are not required to
investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days, of receiving your letter, we must either correct the error or explain to you why we believe
the Monthly Billing Statement is correct.
While we investigate whether or not there has been an error:
●

We cannot try to collect the amount in question, or report you as delinquent on that amount.

●

The charge in question may remain on your Monthly Billing Statement, and we may continue to charge
you

INTEREST CHARGES on that amount.
●

While you do not have to pay the amount in question, you are responsible for the remainder of
your Account balance.

●

We can apply any unpaid amount against your Credit Limit.

After we finish our investigation, one of two things will
happen:
●

If we made a mistake: You will not have to pay the amount in question or any INTEREST
CHARGES, Fees or Other Charges related to that amount.

●

If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable INTEREST CHARGES, Fees and Other Charges. We will send you a Monthly Billing
Statement of the amount you owe and the date payment is due. We may then report you as delinquent
if you do not pay the amount we think you owe.

If you receive our explanation but still believe your Monthly Billing Statement is wrong, you must write to us
within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your Monthly Billing Statement. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question
even if your Monthly Billing Statement is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases.
If you are dissatisfied with the goods or services that you have purchased with your Card and you have tried
in good faith to correct the problem with the merchant, you may have the right not to pay the remaining
amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address, and the purchase price must have been more than $50. (Note: Neither of these are necessary if
your purchase was based on an advertisement we mailed to you, or if we own the company that sold you
the goods or services.)
2. You must have used your Card for the purchase. Purchases made with cash advances from an ATM or
with a check that accesses your Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing
at: Continental Finance
P.O. Box 3220
Buffalo, NY 14240-3220
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not pay,
we may report you as delinquent.
STATE
DISCLOSU
RES
California Residents. A married applicant may apply for a separate Account. As required by law, you are
hereby notified that a negative credit reporting reflecting on your credit record may be submitted to a
Consumer Reporting Agency if you fail to fulfill the terms of your credit obligations. After credit approval, each
applicant shall have the right to use the Account up to the limit of the Account. Each applicant may be liable
for amounts extended under the plan to any joint applicant.
Delaware Residents. Service charges not in excess of those permitted by law will be charged on the
outstanding Account balances from month to month.

Kentucky Residents. You may pay the unpaid balance of your Account in whole or in part at any time.
New York and Vermont Residents. We may obtain a consumer report for any legitimate purpose in
connection with your Account or your application, including but not limited to reviewing, modifying, renewing
and collecting on your Account. Upon your request, we will inform you of the names and addresses of any
Consumer Reporting Agencies that have furnished the reports. New York residents may contact the New
York State Banking Department (1-800-342-3736) to obtain a comparative list of credit card rates, fees and
grace periods.
Ohio Residents. The Ohio laws against discrimination require that all creditors make credit equally available
to all credit worthy customers, and that Consumer Reporting Agencies maintain separate credit histories on
each individual upon request. The Ohio Civil Rights Commission administers compliance with this law.
Married Wisconsin Residents. No provision of any marital property agreement, unilateral statement, or court
order applying to marital property will adversely affect a creditor's interests unless prior to the time credit is
granted, the creditor is furnished with a copy of the agreement, statement, or court order, or has actual
knowledge of that provision. Married Wisconsin residents are required to contact us at P.O. Box 3220, Buffalo,
NY 14240-3220 to provide the name and address of your spouse.

ARBITRATION PROVISION
PLEASE READ CAREFULLY: This Arbitration Provision (the "Provision") waives any right to file
claims in court, other than a small claims court, or to participate in a class action or other
consolidated proceeding.
CARDHOLDERS COVERED BY THE MILITARY LENDING ACT. Notwithstanding any other provision
of this Agreement, if you are a “covered borrower” under the Military Lending Act, as defined in at
32 CFR § 232.3(g), the Arbitration Provision does not apply to you.
Unless you opt out of this Provision in the manner set forth below in subpart (p), any claim that arises out of or
in any way relates to the Agreement, your Account, or this Provision (the “Claim(s)”) shall be resolved
exclusively by binding bilateral arbitration in accord with the following:
a) This Provision is contained in a contract evidencing interstate commerce and is governed by the
Federal Arbitration Act, 9 U.S.C. Sections 1-16.
b) Arbitration in accordance with this Provision shall be conducted by the American Arbitration Association
("AAA") by a single arbitrator (the “Arbitrator”) using the applicable rules and procedures established by the
AAA for expedited consumer arbitration. To the extent any of the AAA's rules and procedures contradict the
express terms of the Provision, the Provision shall control and the contradictory portions of the AAA's rules
and procedures shall not apply.
c) The Arbitrator shall enforce the Applicable Law in the Agreement and shall honor applicable statutes
of limitations and claims of privilege. The Arbitrator may award any relief available under Applicable
Law.
d) You or we may choose to have a hearing, appear at any hearing by phone or other electronic means,
and/or be represented by counsel. Any in-person arbitration hearing or proceeding shall be held in the
same city as the U.S. District Court closest to your billing address unless you and we agree otherwise.
e) The Arbitrator has no authority to conduct class, joint, private attorney general or consolidated
arbitration proceedings on any Claim, and may award relief only on an individual basis. If you assert a
Claim against us, we can choose to arbitrate. Claims brought as part of a class action, or any other
representative action can be arbitrated only on an individual basis. If arbitration is chosen by any party,
neither you nor we may pursue a Claim as part of a class action or other representative action. Claims of
two (2) or more persons may not be combined in the same arbitration.
f) Except as may be required by law, neither a party nor its representatives may disclose the existence,
content, or results of any arbitration hereunder without the prior written consent of all parties. No arbitration
award involving the parties will have any preclusive effect as to issues or claims in any dispute involving
anyone who is not a party to the arbitration, nor will an arbitration award in prior disputes involving other
parties have preclusive effect in an arbitration between the parties to this Provision.
g)Regardless of who asserts a Claim[s], we shall advance your portion of the arbitration filing and hearing
fees. If we prevail in arbitration, the Arbitrator may require you to reimburse us for any filing and hearing
fees that we advanced on your behalf provided that the total filing and hearing fees paid by you shall not
exceed the court costs you would have paid in a comparable state court action. This subpart (g) shall not
affect attorney's fees or costs, including witness or expert witness' fees or costs. You shall be responsible

for your own attorney's fees and costs.
h) If permitted by Applicable Law, the Arbitrator may award reasonable attorney's fees and costs to
the party who substantially prevails in arbitration.
i) In the event the AAA or its rules and procedures are unavailable for any reason, you or we may ask a
court to appoint a substitute Arbitrator to arbitrate under comparable rules and procedures. The unavailability
of the AAA or its rules and procedures shall not render the Provision unenforceable.
j) The Provision covers any Claim arising out of or in any way relating to the Provision itself. All issues of
arbitrability must be arbitrated, including but not limited to whether the Provision is enforceable or applicable.
k)The Provision remains in full force and effect unless you opt out of the Provision in accordance with subpart
(p) or you and we otherwise agree in writing to set the Provision aside. The Provision survives, for example
but without limitation, the cancellation or termination of the Agreement or your Account, the satisfaction of any
obligations under the Agreement or your Account, the transfer, sale, or assignment of the Agreement or your
Account or any rights under either, and the bankruptcy of any party.
l) Each of the following persons or entities is an intended beneficiary of the Provision and may enforce the
Provision in full with respect to any claims between such persons or entities on the one hand and you on the
other hand that arise out of or in any way relate to the Agreement or the Provision: Continental Finance and
any of its or our past, present, and future employees, agents, principals, representatives, directors, officers,
shareholders, governors, managers, members, parent companies, subsidiaries, affiliated entities, partners,
licensees, attorneys, predecessors, successors, joint venturers, contractors, assigns, designees, servicers,
and "service providers" (defined as any third party providing us or any of the foregoing entities or persons
any goods or services that arise out of or in any way relate to the Agreement or the Provision).
m)
The Provision may be enforced by or against any person or entity purporting to bring Claims on your
behalf, including but not limited to any agent, representative, guardian, or trustee. The Provision may also be
enforced by or against any person or entity who acquires any right or interest that, but for the transfer of the
right or interest, would have belonged to us or an intended beneficiary of the Provision.
n) You and we shall retain the right to bring in the small claims court for the county of your residence any
claims that are within the small claims court's jurisdiction. Any appeal or other review of a small claims court
judgment or order shall be undertaken exclusively by arbitration in accordance with the Provision.
o) if any part of the Provision is found unenforceable, subject to any rights to judicial and/or appellate review
the offending part shall be severed and the balance of the Provision shall remain in effect and shall be
construed in light of the express intent of you and us to resolve all claims on a bilateral basis in binding
arbitration, except that: (A) if all or any portion of subpart (e) is declared invalid in a proceeding between you
and us, without in any way impairing the right to appeal such decision, this entire Provision (other than this
sentence) shall be null and void in such proceeding; and (B) if a claim is brought seeking public injunctive
relief and a court determines that the restrictions in subpart (e) or elsewhere in this Provision prohibiting the
arbitrator from awarding relief on behalf of third parties are unenforceable with respect to such claim (and that
determination becomes final after all appeals have been exhausted), the claim for public injunctive relief will be
determined in court and any individual claims seeking monetary relief will be arbitrated. In such a case the
parties will request that the court stay the claim for public injunctive relief until the arbitration award pertaining
to individual relief has been entered in court.
p) You may opt out of this Provision by sending written notice to us of your decision to opt out. Notice must
be sent by United States Postal Certified Mail, Return Receipt Requested, to the following address: The Bank
Of Missouri, c/o Continental Finance Company, P.O. Box 3220, Buffalo, NY 14240-3220. The notice must be
postmarked no later than 30 days after the date of your Agreement. You must retain proof of receipt. Your opt
out notice must state that you reject the arbitration Provision and include your name, address, Account number and
personal signature. No one else may sign the opt out notice. Your opt out notice will not apply to the arbitration
provision(s) governing any other account(s) that you have or had with us. Your decision to opt out will not affect our
decision to continue to extend credit to you under the Agreement.
Mastercard® and the Mastercard acceptance mark and service marks used by The Bank Of Missouri under
license from Mastercard International.

6/14/21

